CERTIFICATE OF COMPLIANCE
No. 19-547
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL.,
Petitioners,
v.
SIERRA CLUB, INC.,

Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the Brief Amici
Curiae of the Reporters Committee for Freedom of the Press and 28 Media
Organizations in Support of Respondent (the “Amici Brief”) complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in Century
Schoolbook 12 point for the text and 10 point for the footnotes, and the Amici Brief
contains 5,047 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 3, 2020.
/s/Bruce D. Brown
Bruce D. Brown
THE REPORTERS COMMITTEE FOR
FREEDOM OF THE PRESS
1156 15th St. NW, Suite 1020
Washington, DC 20005
(202) 795-9300

